CERTIFICATE OF SERVICE
NO. TBD
Billy John Bell
Petitioner(s)
v.
State of Texas
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the BILLY
JOHN BELL PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Gary Young
Lamar County Courthouse
119 N. Main
Paris, TX 75460
(903) 737-2470
gyoung@co.lamar.tx.us
Counsel for State of Texas

Stacey M. Soule
Office of the State Prosecuting Attorney
P.O. Box 13046
Austin, TX 78711-3046
(512) 473-2447
information@spa.texas.gov
Counsel for State of Texas

Lucas DeDeus

November 9, 2020
SCP Tracking: Rodgers-100 North Main Street-Cover White

